           Office of Inspector General




September 29, 2004

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT:          Audit Report – Bulk Mail Center Highway Transportation Routes –
                  Great Lakes Area (Report Number NL-AR-04-004)

This report presents results of our Bulk Mail Center Highway Transportation Routes
audit (Project Number 04YG013NL000). It is the first in a series of reports. Our
objectives were to evaluate the effectiveness of bulk mail center routes and to identify
opportunities for cost savings. This report responds to a request from the Vice
President, Network Operations Management, and focuses on routes controlled by the
Great Lakes Area.

The Postal Service could save about $7.7 million over the term of existing Great Lakes
Area bulk mail highway contracts, by terminating, substituting, or modifying 96 trips.
The savings represent potential funds that could be put to better use and will be
reported as such in our Semiannual Report to Congress. The Postal Service could
eliminate or modify the trips without negatively affecting service because trip mail
volume was low, and mail could be consolidated on other trips. We recommended that
the Vice President, Great Lakes Area Operations, verify the cancellation or modification
of the 40 trips management identified for termination during our audit; verify appropriate
action on the 49 trips management agreed to modify, substitute, or terminate; and
reassess the 7 trips managers thought were still necessary. Management agreed with
the intent of all of our recommendations, but made certain modifications or substitutions
they deemed appropriate. We believe the action management has taken or planned, is
responsive to the recommendations we made. Management’s comments, and our
evaluation of their comments, are included in our report.

The Office of Inspector General (OIG) considers recommendations 1, 2, and
3 significant, and therefore requires OIG concurrence before closure. Consequently,
the OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during our audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Network Operations and Logistics, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Patrick R. Donahoe
    John A. Rapp
    Paul E. Vogel
    Anthony M. Pajunas
    Steven R. Phelps
Bulk Mail Center Highway Transportation Routes –                                 NL-AR-04-004
 Great Lakes Area


                                      INTRODUCTION
Background                    This is one in a series of audit reports on bulk mail center
                              highway transportation routes. It responds to a request
                              from the Vice President, Network Operations Management.




  Highway transportation
  contractor departing the
 St. Louis Bulk Mail Center
       March 17, 2004




                              Bulk mail includes magazines, advertising, and
                              merchandise shipped by major mailers like publishers,
                              catalog companies, or on-line retail companies. It is
                              processed by a system of 21 bulk mail centers and other
                              facilities nationwide. The Postal Service spends more than
                              $500 million annually on bulk mail center highway
                              transportation routes. These contract routes are controlled
                              by individual Postal Service Areas. This report focuses on
                              the routes controlled by the Great Lakes Area.

Objectives, Scope,            The objectives of our audit were to evaluate the
and Methodology               effectiveness of scheduled bulk mail center transportation
                              routes, and to identify opportunities for cost savings.

                              Using Postal Service computer-generated data, we
                              identified 1,224 trips operated under 110 Great Lakes Area
                              contracts that had at least one bulk mail center service
                              point. In preparation for our work, we provided Area officials
                              and plant managers with the list of Great Lakes Area
                              contracts we intended to audit. During our work, we
                              interviewed officials at headquarters and in the Great Lakes
                              Area; reviewed relevant Postal Service policies and
                              procedures; visited three bulk mail centers and other Postal
                              Service facilities; interviewed managers and employees;
                              and observed and photographed operations. We consulted


                                                   1
Bulk Mail Center Highway Transportation Routes –                                 NL-AR-04-004
 Great Lakes Area


                              with financial analysts, computer analysts, and other subject
                              matter experts; evaluated mail volume and the type of mail
                              carried; considered service standards; and analyzed all
                              1,224 trips. We also discussed our conclusions and
                              observations with appropriate management officials and
                              included their comments where appropriate.

                              We conducted work associated with this report from
                              March 2004 through September 2004 in accordance with
                              generally accepted government auditing standards, and
                              included such tests of internal controls that were considered
                              necessary under the circumstances.

Data Limitations              During our audit, we examined computer data in Postal
                              Service management’s Transportation Contract Support
                              System and Transportation Information Management
                              Evaluation System. We did not audit or comprehensively
                              validate the data; however, we noted several control
                              weaknesses that constrained our work. For example, the
                              Transportation Information Management Evaluation System
                              had missing records and inaccurate trailer load volumes.
                              Even though data limitations constrained our work, we were
                              able to partially compensate by applying alternate audit
                              procedures, including source document examination,
                              observation, physical inspection, and discussion with
                              responsible officials. We also applied conservative
                              principles to our monetary impact estimates, and,
                              accordingly, always selected the most restrained
                              assessment.

Prior Audit Coverage          Our Highway Network Scheduling audit, conducted at the
                              request of the Vice President, Network Operations
                              Management, involved a series of nine reports and
                              examined 1,636 highway contracts and 16,299 highway
                              trips nationwide. The reports concluded that 915 trips could
                              be eliminated with potential savings of approximately
                              $43 million. Local plant managers disagreed with 316 trips
                              we identified; however, Postal Service Area management
                              agreed to reassess the 316 trips and retain or eliminate
                              them based on their reassessment (see Appendix A).




                                                   2
Bulk Mail Center Highway Transportation Routes –                                        NL-AR-04-004
 Great Lakes Area


                                        AUDIT RESULTS
Contracted Bulk Mail          Network management is dynamic and requirements change.
Center Highway Trips          When the draft of this report was issued June 30, 2004, it
                              stated that the Postal Service could save about $7.9 million
                              over the term of existing Great Lakes Area highway
                              contracts by terminating 110 unnecessary bulk mail center
                              trips. The draft explained that the trips could be eliminated
                              without negatively affecting service because trip mail
                              volume was low and mail could be consolidated on other
                              trips. As indicated below, the draft also explained that about
                              58 percent of affected contracts would expire within
                              one year, and that the other 42 percent would have one to
                              three years remaining.
                                          PROPOSED NONRENEWALS AND CANCELLATIONS

                                          TRIP              AFFECTED      NUMBER      ANTICIPATED
                                        CATEGORY              TRIPS       OF TRIPS      SAVINGS

                                Contracts expiring
                                within one year              58 percent      64         $4,879,302

                                Contracts expiring in
                                one to three years           42 percent      46          2,973,453

                                All terminated trips        100 percent     110         $7,852,755

                              The draft concluded that the Postal Service could attain
                              savings by not renewing unnecessary trips that were
                              scheduled to expire within one year, or by canceling
                              unnecessary trips that were contracted to continue for
                              one to three years. The savings identified included savings
                              from nonrenewable trips, plus savings from trip
                              cancellations net of cancellation fees totaling approximately
                              $242,716. When the draft was issued, plant transportation
                              managers agreed with all trip termination proposals
                              specified below.
                                                   TRIP CANCELLATION PROPOSALS

                                        CANCELLATION           NUMBER                   IDENTIFIED
                                          CATEGORY             OF TRIPS    APPENDIX      SAVINGS

                                Postal Service identified
                                trip cancellations during
                                the audit                          40             B     $1,156,631

                                Trips we identified with
                                plant manager agreement            70             C      6,696,124

                                Total                             110                   $7,852,755



                                                   3
Bulk Mail Center Highway Transportation Routes –                                   NL-AR-04-004
 Great Lakes Area




Subsequent Events             The 110 trips recommended for termination in the draft
                              report included 14 trips associated with the Detroit Mail
                              Transport Equipment Service Center, which was scheduled
                              to close. After the draft was issued, Postal Service


   Detroit Mail Transport
    Equipment Service
           Center
    September 16, 2004

   Network requirements
  change. While our audit
     was in progress, the
   Postal Service planned
     to close the Detroit
   service center, and we
    recommended 14 trip
   terminations based on
          that plan.




                              Headquarters decided to keep the facility open. That event
                              and other subsequent considerations caused requirements
                              to change. Because requirements changed, management
                              made various substitutions or modifications they deemed


   Detroit Mail Transport
    Equipment Service
           Center
    September 16, 2004

    After our draft report
   was issued, the Postal
  Service decided to keep
   the facility open. That
       event, and other
         subsequent
  considerations, caused
    trip requirements to
           change.




                              appropriate. In this regard, management identified 7 trip
                              termination proposals with which they did not agree and
                              retained the 14 trips associated with the Detroit facility. As
                              a result, we discussed the changes with Area officials, and


                                                   4
Bulk Mail Center Highway Transportation Routes –                                    NL-AR-04-004
 Great Lakes Area


                              modified our report, its appendices, and our
                              recommendations accordingly. The restated results and
                              recommendations are specified below:
                                        TRIP CANCELLATION AND MODIFICATION PROPOSALS

                                                            NUMBER                  IDENTIFIED
                                        CATEGORY            OF TRIPS   APPENDIX      SAVINGS

                                Postal Service identified
                                trip cancellations or
                                modifications during the       40          B        $1,156,631
                                audit

                                Agreement, substitutions,
                                or modifications               49          C         5,954,121

                                Disagreement                    7          D          549,781

                                Total                          96                   $7,660,533

                                Non-applicable Detroit                    Not          Not
                                MTESC trips                    14      Applicable   Applicable

                                                                          Not          Not
                                Total                         110      Applicable   Applicable


Recommendations               We recommend the Vice President, Great Lakes Area
                              Operations:

                                  1. Verify the actual cancellation or modification of the
                                     trips identified by management during the course of
                                     the audit.

                                  2. Cancel or modify the trips with which plant managers
                                     agreed, and provide the date action was taken.

                                  3. Reassess the trips plant managers and Area officials
                                     still feel are necessary, cancel trips indicated by the
                                     reassessment as unnecessary, and document the
                                     reasons for retaining the other trips.

Management’s                  Great Lakes Area management concurred with the intent of
Comments                      our original 110 trip termination proposals. However, based
                              on subsequent events, the Great Lakes Area identified
                              changes, including the 7 trip termination recommendations
                              with which they now disagreed, and the 14 trips associated
                              with the Detroit Mail Transport Equipment Service Center.
                              Management also stated that:



                                                   5
Bulk Mail Center Highway Transportation Routes –                                  NL-AR-04-004
 Great Lakes Area


                                  •   They were in the process of implementing network
                                      changes.

                                  •   Changing requirements could still result in additional
                                      modifications or substitutions.

                                  •   Their savings methodology was normally restricted to
                                      a one-year budget cycle.

                                  •   Consequently, they could not validate our projected
                                      savings until their network changes were complete

                              Management explained that when they completed their
                              network changes, they would notify us of expected and
                              realized savings. Management’s comments, in their
                              entirety, are included in Appendix E of this report.

Evaluation of                 Agreement on the 89 terminations, modifications, or
Management’s                  substitutions reflects the high level of cooperation the Great
Comments                      Lakes Area provided during our audit, and we believe the
                              actions management has taken or planned are responsive
                              to the recommendations we made. However, we continue
                              to believe the 7 termination proposals with which
                              management disagrees, provide the potential for
                              cancellation without jeopardizing service or operational
                              flexibility. We will resolve the disagreement as part of our
                              normal process for closing significant recommendations.




                                                   6
Bulk Mail Center Highway Transportation Routes –                                        NL-AR-04-004
 Great Lakes Area


                                     APPENDIX A. PRIOR REPORT COVERAGE

                                                                                                   Number of   Number
                                                   Number of                      Number of Trips
                                                                                                   Trips With  of Trips
                                                      Trips                         With Which
                                                                                                     Which    Identified
                         Report      Report Final Identified for Potential Savings Management
                                                                                                  Management      by
   Report Name           Number       Issue Date   Elimination       Identified      Agreed
                                                                                                   Disagreed    Postal
 Highway Network
   Scheduling -
   Area Covered

    Pacific Area      TD-AR-02-003   9/24/2002        158      $    4,500,417          76               34         48
   Northeast Area     TD-AR-03-002   11/25/2002        18             776,992          10                8
 Capital Metro Area   TD-AR-03-007   3/28/2003         34           1,144,218          20               14
New York Metro Area   TD-AR-03-008   3/31/2003         32             470,123          12               20
  Southwest Area      TD-AR-03-010   7/11/2003        249           5,989,082         148              101
   Western Area       TD-AR-03-013   9/23/2003         70           2,721,530          30               40
   Southeast Area     TD-AR-03-014   9/26/2003        101          11,352,881          23               24         54
    Eastern Area      TD-AR-03-015   9/30/2003        181          10,577,367         128               53
  Great Lakes Area    NL-AR-04-003   3/29/2004         72           5,352,877          48               22          2

      Totals                                          915      $   42,885,487         495              316        104




                                                                    7
 Bulk Mail Center Highway Transportation Routes –                                         NL-AR-04-004
  Great Lakes Area


                                              APPENDIX B
                             POSTAL SERVICE IDENTIFIED TRIP CANCELLATIONS
                                  OR MODIFICATIONS DURING THE AUDIT

 Effective
  Date of     End Date                                                                       Estimated
   Last          of         HCR        Trip                                   Annual          Contract   Indemnity    Estimated
 Change       Contract     Number     Number        Origin to Destination   Budget Cost        Cost         Fees     Cost Savings

10/4/2003    6/30/2005    48192      809 *      Detroit BMC to Flint        $5,792          $23,169      $0          $23,169
                                                P&DC
10/4/2003    6/30/2005    48192      810 *      Flint P&DC to Detroit       $6,306          $25,222      $0          $25,222
                                                BMC
10/4/2003    6/30/2005    48192      821 *      Flint P&DC to Detroit       $5,792          $23,169      $0          $23,169
                                                BMC
10/4/2003    6/30/2005    48192      822 *      Detroit BMC to Flint        $5,792          $23,169      $0          $23,169
                                                P&DC
10/4/2003    6/30/2005    48192      823 *      Flint P&DC to Detroit       $5,792          $23,169      $0          $23,169
                                                BMC
10/4/2003    6/30/2005    48192      824 *      Detroit BMC to Flint        $5,792          $23,169      $0          $23,169
                                                P&DC
10/4/2003    6/30/2005    48192      815 *      Saginaw P&DC to Detroit     $8,358          $33,434      $0          $33,434
                                                BMC
10/4/2003    6/30/2005    48192      816 *      Detroit BMC to Saginaw      $8,358          $33,434      $0          $33,434
                                                P&DC
10/4/2003    6/30/2005    48192      807 *      Detroit BMC to Saginaw      $8,358          $33,434      $0          $33,434
                                                P&DC
10/4/2003    6/30/2005    48192      808 *      Saginaw P&DC to Detroit     $9,092          $36,367      $0          $36,367
                                                BMC
10/4/2003    6/30/2005    48192      817 *      Saginaw P&DC to Detroit     $8,358          $33,434      $0          $33,434
                                                BMC
10/4/2003    6/30/2005    48192      818 *      Detroit BMC to Saginaw      $8,358          $33,434      $0          $33,434
                                                P&DC
11/1/2003    6/30/2004    49390      817 *      Grand Rapids Processing     $10,082         $40,327      $0          $40,327
                                                Annex to Detroit BMC
11/1/2003    6/30/2004    49390      818 *      Detroit BMC to Grand        $10,082         $40,327      $0          $40,327
                                                Rapids Processing Annex

                                                                     8
 Bulk Mail Center Highway Transportation Routes –                                       NL-AR-04-004
  Great Lakes Area


 Effective
  Date of    End Date                                                                       Estimated
   Last          of         HCR        Trip                                 Annual           Contract    Indemnity     Estimated
 Change       Contract    Number     Number       Origin to Destination   Budget Cost         Cost          Fees     Cost Savings
11/1/2003    6/30/2004    49390      815 *      Grand Rapids Processing   $10,082         $40,327       $0           $40,327
                                                Annex to Detroit BMC
11/1/2003    6/30/2004    49390      816 *      Detroit BMC to Grand      $10,082         $40,327       $0           $40,327
                                                Rapids Processing Annex
11/1/2003    6/30/2004    49390      819 *      Grand Rapids Processing   $10,082         $40,327       $0           $40,327
                                                Annex to Detroit BMC
11/1/2003    6/30/2004    49390      820 *      Detroit BMC to Grand      $10,082         $40,327       $0           $40,327
                                                Rapids Processing Annex
10/1/2003    6/30/2004    48391      827 *      Detroit BMC to South      $27,456         $109,824      $0           $109,824
                                                Bend P&DC
10/1/2003    6/30/2004    48391      828 *      South Bend P&DC to        $27,456         $109,824      $0           $109,824
                                                Detroit BMC
4/19/2003    6/30/2004    48392      809 *      Lansing P&DC to Detroit   $11,370         $45,480       $0           $45,480
                                                BMC
4/19/2003    6/30/2004    48392      810 *      Detroit BMC to Lansing    $11,370         $45,480       $0           $45,480
                                                P&DC
4/19/2003    6/30/2004    48392      811 *      Lansing P&DC to Detroit   $5,685          $22,740       $0           $22,740
                                                BMC
4/19/2003    6/30/2004    48392      812 *      Detroit BMC to Lansing    $5,685          $22,740       $0           $22,740
                                                P&DC
12/27/2003   6/30/2007    63216      801        St. Louis BMC to          $8,060          $24,179       $2,687       $21,493
                                                Memphis BMC
12/27/2003   6/30/2007    63216      802        Memphis BMC to            $8,060          $24,179       $2,687       $21,493
                                                St. Louis BMC
7/1/2003     6/30/2007    46090      801/802    Indianapolis P&DC to      $6,756          $20,268       $2,252       $18,016
                                                Cincinnati BMC
7/1/2003     6/30/2007    46090      811/812    Cincinnati BMC to         $8,902          $26,707       $2,967       $23,740
                                                Indianapolis P&DC
7/1/2003     6/30/2007    46090      827/828    Cincinnati BMC to         $6,756          $20,268       $2,252       $18,016
                                                Indianapolis P&DC
7/1/2003     6/30/2007    46090      831/832    Cincinnati BMC to         $17,707         $53,122       $5,902       $47,220
                                                Indianapolis P&DC




                                                                  9
 Bulk Mail Center Highway Transportation Routes –                                       NL-AR-04-004
  Great Lakes Area


 Effective
  Date of    End Date                                                                       Estimated
    Last         of         HCR        Trip                                  Annual          Contract    Indemnity     Estimated
  Change      Contract    Number     Number       Origin to Destination   Budget Cost         Cost          Fees     Cost Savings
7/1/2003     6/30/2007    46090      835/836    Cincinnati BMC to         $8,902          $26,707       $2,967       $23,740
                                                Indianapolis P&DC
7/1/2003     6/30/2007    46090      845/846    Cincinnati BMC to         $8,854          $26,561       $2,951       $23,610
                                                Indianapolis P&DC
7/1/2003     6/30/2007    46090      847/848    Cincinnati BMC to         $6,244          $18,732       $2,081       $16,650
                                                Indianapolis P&DC

TOTALS                               40                                   $315,905        $1,183,378    $26,747      $1,156,631



* Trip Modification: This indicates a trip modification involving a change in frequency, such as elimination of Saturdays.




                                                                   10
 Bulk Mail Center Highway Transportation Routes –                                    NL-AR-04-004
  Great Lakes Area



                                                APPENDIX C
                              TRIPS IDENTIFIED DURING AUDIT WORK WITH WHICH
                                         PLANT MANAGERS AGREED
 Effective                                                                       Annual     Estimated
Date of Last    End Date       HCR           Trip                                Budget      Contract    Indemnity     Estimated
  Change       of Contract    Number       Number    Origin to Destination        Cost        Cost          Fees     Cost Savings
10/4/2003      6/30/2005     48322        803       Detroit Bulk Mail Center   $29,665     $118,659     $0           $118,659
                                                    (BMC) to Monroe MI
10/4/2003      6/30/2005     48322        804       Monroe MI to Detroit       $27,077     $108,310     $0           $108,310
                                                    BMC
11/1/2003      6/30/2004     46790        801       Fort Wayne P&DC to         $33,124     $132,497     $0           $132,497
                                                    Detroit BMC
11/1/2003      6/30/2004     46790        802       Detroit BMC to Fort        $33,124     $132,497     $0           $132,497
                                                    Wayne P&DC
11/1/2003      6/30/2004     46790        809       Fort Wayne Processing      $33,124     $132,497     $0           $132,497
                                                    & Distribution Center
                                                    (P&DC) to Detroit BMC
11/1/2003      6/30/2004     46790        810       Detroit BMC to Fort        $33,124     $132,497     $0           $132,497
                                                    Wayne P&DC
7/1/2003       6/30/2005     48190        807       Ann Arbor to Detroit       $27,011     $108,045     $0           $108,045
                                                    BMC
7/1/2003       6/30/2005     48190        806       Detroit BMC to Ann         $27,011     $108,045     $0           $108,045
                                                    Arbor
7/1/2003       6/30/2007     483U3        801       Detroit BMC to Canton      $14,616     $43,849      $4,872       $38,977
7/1/2003       6/30/2007     483U3        802       Canton to Detroit BMC      $11,439     $34,316      $3,813       $30,504
2/22/2003      6/30/2004     60890        803       Chicago BMC to Gary        $23,025     $92,100      $0           $92,100
                                                    P&DC
2/22/2003      6/30/2004     60890        804       Gary P&DC to Chicago       $23,025     $92,100      $0           $92,100
                                                    BMC
11/29/2003     6/30/2004     608AK        813       MTESC to Chicago           $18,679     $74,715      $0           $74,715
                                                    BMC
11/29/2003     6/30/2004     608AK        814       Chicago BMC to             $18,679     $74,715      $0           $74,715
                                                    MTESC
11/29/2003     6/30/2004     608AK        817       MTESC to Chicago           $18,679     $74,715      $0           $74,715
                                                    BMC

                                                                 11
 Bulk Mail Center Highway Transportation Routes –                                      NL-AR-04-004
  Great Lakes Area


 Effective                                                                         Annual     Estimated
Date of Last    End Date       HCR             Trip                                Budget      Contract    Indemnity    Estimated
  Change       of Contract    Number          Number    Origin to Destination       Cost        Cost          Fees     Cost Savings

11/29/2003     6/30/2004     608AK        818           Chicago BMC to           $18,679     $74,715      $0           $74,715
                                                        MTESC
11/29/2003     6/30/2004     608AK        807           MTESC to Chicago         $26,297     $105,187     $0           $105,187
                                                        BMC
11/29/2003     6/30/2004     608AK        808           Chicago BMC to           $41,233     $164,933     $0           $164,933
                                                        MTESC
11/15/2003     6/30/2005     60811        803           Chicago BMC to Detroit   $103,943    $415,773     $0           $415,773
                                                        BMC
11/15/2003     6/30/2005     60811        804           Detroit BMC to Chicago   $106,057    $424,229     $0           $424,229
                                                        BMC
9/6/2003       6/30/2004     60891        821           Chicago BMC to           $45,370     $181,482     $0           $181,482
                                                        Milwaukee P&DC
9/6/2003       6/30/2004     60891        822           Milwaukee P&DC to        $45,370     $181,482     $0           $181,482
                                                        Chicago BMC
7/13/2003      6/30/2007     608U0        827           Palatine P&DC to         $16,416     $49,249      $5,472       $43,777
                                                        Chicago BMC
7/13/2003      6/30/2007     608U0        828           Chicago BMC to           $16,416     $49,249      $5,472       $43,777
                                                        Palatine P&DC
11/15/2003     6/30/2004     608Y0        807           Chicago BMC to           $38,694     $154,777     $0           $154,777
                                                        Cincinnati BMC
11/15/2003     6/30/2004     608Y0        808           Cincinnati BMC to        $38,694     $154,777     $0           $154,777
                                                        Chicago BMC
11/15/2003     6/30/2004     608Y0        819           Chicago BMC to           $46,301     $185,203     $0           $185,203
                                                        Cincinnati BMC
11/15/2003     6/30/2004     608Y0        820           Cincinnati BMC to        $46,301     $185,203     $0           $185,203
                                                        Chicago BMC
11/29/2003     6/30/2007     607M2        7/8/9/10(20   Chicago Metro Surface    $40,004     $120,012     $13,335      $106,677
                                          miles each    Hub to St. Louis BMC
                                          trip) **
4/17/2004      6/30/2007     607M8        7             Chicago Metro Surface    $176,010    $528,031     $0           $528,031
                                                        Hub to Kansas City
                                                        P&DC
4/17/2004      6/30/2007     607M8        8             Kansas City P&DC to      $176,010    $528,031     $0           $528,031
                                                        Chicago Metro Surface
                                                        Hub


                                                                    12
 Bulk Mail Center Highway Transportation Routes –                                     NL-AR-04-004
  Great Lakes Area


 Effective                                                                     Annual        Estimated
Date of Last    End Date       HCR           Trip                              Budget         Contract    Indemnity    Estimated
  Change       of Contract    Number        Number   Origin to Destination      Cost           Cost          Fees     Cost Savings

7/1/2003       6/30/2007     46090        825        Indianapolis P&DC to    $29,269        $87,807      $9,756       $78,051
                                                     Cincinnati BMC
7/1/2003       6/30/2007     46090        826        Cincinnati BMC to       $29,017        $87,050      $9,672       $77,378
                                                     Indianapolis P&DC
7/1/2003       6/30/2007     46090        827        Indianapolis P&DC to    $24,861        $74,583      $8,287       $66,296
                                                     Cincinnati BMC
7/1/2003       6/30/2007     46090        828        Cincinnati BMC to       $28,076        $84,228      $9,359       $74,869
                                                     Indianapolis P&DC
7/1/2003       6/30/2007     46090        829        Indianapolis P&DC to    $8,390         $25,171      $2,797       $22,374
                                                     Cincinnati BMC
7/1/2003       6/30/2007     46090        830        Cincinnati BMC to       $8,390         $25,171      $2,797       $22,374
                                                     Indianapolis P&DC
7/1/2003       6/30/2007     46090        847        Indianapolis P&DC to    $23,297        $69,891      $7,766       $62,125
                                                     Cincinnati BMC
7/1/2003       6/30/2007     46090        848        Cincinnati BMC to       $24,364        $73,092      $8,121       $64,971
                                                     Indianapolis P&DC
7/1/2003       6/30/2007     46090        873        Indianapolis P&DC to    $34,911        $104,734     $11,637      $93,097
                                                     Cincinnati BMC
7/1/2003       6/30/2007     46090        874        Cincinnati BMC to       $34,610        $103,831     $11,537      $92,294
                                                     Indianapolis P&DC
7/1/2003       6/30/2007     46090        875        Indianapolis P&DC to    $29,269        $87,807      $9,756       $78,051
                                                     Cincinnati BMC
7/1/2003       6/30/2007     46090        876        Cincinnati BMC to       $33,054        $99,162      $11,018      $88,144
                                                     Indianapolis P&DC
7/1/2003       6/30/2007     46090        877        Indianapolis P&DC to    $9,964         $29,891      $3,321       $26,570
                                                     Cincinnati BMC
7/1/2003       6/30/2007     46090        878        Cincinnati BMC to       $9,964         $29,891      $3,321       $26,570
                                                     Indianapolis P&DC
7/1/2003       6/30/2007     46090        895        Indianapolis P&DC to    $27,678        $83,033      $9,226       $73,807
                                                     Cincinnati BMC
7/1/2003       6/30/2007     46090        896        Cincinnati BMC to       $28,945        $86,836      $9,648       $77,188
                                                     Indianapolis P&DC
7/1/2003       6/30/2007     46090        809 **     Indianapolis P&DC to    $178           $534         $59          $474
                                                     Cincinnati BMC



                                                                 13
 Bulk Mail Center Highway Transportation Routes –                                   NL-AR-04-004
  Great Lakes Area


 Effective                                                                     Annual       Estimated
Date of Last    End Date       HCR           Trip                              Budget        Contract    Indemnity    Estimated
  Change       of Contract    Number        Number   Origin to Destination      Cost          Cost          Fees     Cost Savings

7/1/2003       6/30/2007     46090        857 **     Indianapolis P&DC to    $211          $634         $70          $563
                                                     Cincinnati BMC

TOTALS                                    49                                 $1, 737,645   $6,115,236   $161,112     $5,954,121

** Trip Modification: This indicates a trip modification involving a change in service point, resulting in a reduction of
    Miles per trip




                                                                 14
 Bulk Mail Center Highway Transportation Routes –                                  NL-AR-04-004
  Great Lakes Area



                                                        APPENDIX D
                                        TRIPS IDENTIFIED DURING AUDIT WORK WHICH
                                                PLANT MANAGERS DISAGREE

2/14/2004       6/30/2004       48090           801       Detroit BMC    $16,910         $67,638     $0             $67,638
                                                          to Royal Oak
                                                          P&DC
2/14/2004       6/30/2004       48090           802       Royal Oak      $16,910         $67,638     $0             $67,638
                                                          P&DC to
                                                          Detroit BMC
1/10/2004       6/30/2006       62390           807       St. Louis      $9,293          $18,586     $3,098         $15,488
                                                          BMC to
                                                          Quincy P&DC
1/10/2004       6/30/2006       62390           808       Quincy P&DC    $6,984          $13,968     $2,328         $11,640
                                                          to St. Louis
                                                          BMC
1/10/2004       6/30/2006       62390           804       Quincy P&DC    $8,059          $16,117     $2,686         $13,431
                                                          to St. Louis
                                                          BMC
12/4/2003       6/30/2007       63290           801       St. Louis      $67,671         $203,013    $22,557        $180,456
                                                          BMC to
                                                          Champaign
                                                          P&DF
12/4/2003       6/30/2007       63290           802       Champaign      $72,558         $217,675    $24,186        $193,489
                                                          P&DF to St.
                                                          Louis BMC

 TOTALS                                               7                   $198,385        $604,635        $54,855    $549,781




                                                               15
 Bulk Mail Center Highway Transportation Routes –                               NL-AR-04-004
  Great Lakes Area


                   APPENDIX E. MANAGEMENTS COMMENTS




August 24, 2004


KIM H. STROUD, DIRECTOR
AUDIT OPERATIONS
OFFICE OF THE INSPECTOR GENERAL

SUBJECT: Response to Bulk Mail Center Transportation Audit Findings


This letter is in response to the audit conducted by your office of the Bulk Mail Center
Highway Transportation Routes (project number 04YG013NL000) of June 22, 2004.

This office concurs with the intent of the findings and recommendations of the audit. In
total, your audit report included 110 trips, of which 40 trips were included in Appendix B,
and 70 trips in Appendix C. Network management is a dynamic process and
transportation requirements continually change. As such, after completing an
independent analysis of the trips identified in the audit, it was determined that some of
the trips where changes were recommended would result in negative service impacts if
the changes were completed. Included in the attachment you will find our analysis of
each of the trips included in your audit.

From this independent analysis, the Great Lakes Area has determined the following:

   •   Elimination of 48 trips included in the audit report
   •   Elimination of 4 trips substituted for trips included in the audit report
   •   Frequency changes on 37 trips included in the audit report
   •   No action will be taken on 14 trips identified as MTE trips as a result of the
       decision to keep the Detroit MTESC open
   •   No action will be taken on 7 trips that this office determined would result in a
       negative service impact or because the trip is carrying too much volume to
       consider an adjustment

This office is in the process of completing the above-identified changes. When this
effort is complete, you will be notified of the trips eliminated, the frequency changes
made and the resulting cost savings. With regard to the monetary findings included in
your audit, this office cannot validate your projected savings at this time.


                                                    16
 Bulk Mail Center Highway Transportation Routes –                              NL-AR-04-004
  Great Lakes Area


The Office of the Inspector General (OIG) methodology for calculating savings extends
beyond the current contract year and into the term of the contract, while our normal
methodology is to restrict identified savings to a one-year planning/budget cycle.
Additionally, changing requirements results in trip substitutions and adjustments which
will cause our anticipated savings to differ from the savings identified in the audit. When
our effort of trip eliminations and frequency changes is complete, this office will work
with the OIG to reconcile methodologies for calculating cost benefits and will report
expected and realized savings.

If further analysis or explanation is required regarding this response, please contact me
directly.




Allen J. Brown
Manager

Attachment

cc: Vice President, Area Operations
    Great Lakes Area

    Manager, Operations Support
    Great Lakes Area

    Manager, Finance
    Great Lakes Area




                                                    17
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   18
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   19
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   20
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   21
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   22
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   23
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   24
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   25
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   26
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   27
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   28
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   29
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   30
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   31
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   32
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   33
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   34
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   35
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   36
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   37
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   38
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   39
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   40
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   41
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   42
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   43
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   44
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   45
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   46
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   47
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   48
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   49
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   50
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   51
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   52
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   53
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   54
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   55
Bulk Mail Center Highway Transportation Routes –        NL-AR-04-004
 Great Lakes Area




                                                   56
